                                                             EMPLOYMENT AND TRAINING
                                                             ADMINISTRATION

               Office of Inspector General—Office of Audit




                                                             AUDIT OF THE DOL EARMARKED GRANTS
                                                             AWARDED TO THE WEST VIRGINIA HIGH
                                                             TECHNOLOGY CONSORTIUM FOUNDATION




                                                                                    Date:   March 31, 2009
21-A08-003-03-390                                                          Report Number:   03-09-001-03-390
U.S. Department of Labor                               MARCH 2009
Office of Inspector General
Office of Audit                                        AUDIT OF THE DOL EARMARKED GRANTS
                                                       AWARDED TO THE WEST VIRGINIA HIGH
                                                       TECHNOLOGY CONSORTIUM FOUNDATION
BRIEFLY…                                               WHAT OIG FOUND
Highlights of Report Number 03-09-001-03-390, to       WVHTCF could not demonstrate that it
the Deputy Assistant Secretary for Employment          accomplished the grants’ objectives. While
and Training.                                          WVHTCF developed and implemented the
                                                       Network Learning Alliance web-based training
WHY READ THE REPORT                                    system, it reported inaccurate and unreliable
The Office of Inspector General (OIG) audited          company enrollment and participant training data,
three earmarked grants awarded by DOL’s                and did not have a plan on how to report
Employment and Training Administration (ETA),          performance outcomes for employment retention
under the authority of the Workforce Investment        and wage gains.
Act (WIA), to the West Virginia High Technology
Consortium Foundation (WVHTCF), a 501(c)(3)            Additionally, WVHTCF charged $829,890 in costs
non-profit organization located in Fairmont, West      to the grant that were not reasonable and
Virginia. The three grants totaled $1,891,450 and      allowable. This primarily included $748,549 in non-
were secured through earmarked funds in the DOL        competitive awards that were not adequately
spending bills for fiscal years (FYs) 2002, 2003,      justified. Other costs charged by WVHTCF that
and 2005. WVHTCF is a regionally-based based           were not allowable were excessive administrative
high tech, non-profit organization that received the   costs totaling $41,498 and significant increases to
DOL grants to develop the Network Learning             two budget line items not approved by ETA totaling
Alliance in order to develop training curricula to     $39,843.
meet specific employer needs and industry-
recognized skills and knowledge. The training          WHAT OIG RECOMMENDED
would provide workers "portable" credentials tied      We made six recommendations to the Assistant
to either national skill standards or industry         Secretary for Employment and Training. Foremost
certifications. High-tech employers, meanwhile,        among our recommendations was to require
would have access to customized training for their     WVHTCF to develop and implement policies and
immediate and long-term needs, promoting the           procedures for a reporting system that will provide
growth of their companies and the local economy.       accurate and reliable performance and outcome
                                                       data. We also recommended that the Assistant
WHY OIG CONDUCTED THE AUDIT                            Secretary for Employment and Training recover
OIG conducted the audit to answer the following        questioned costs of $829,890.
questions
                                                       WVHTCF officials responded that there is no basis
1. Did WVHTCF accomplish the grants’                   for the finding that they did not report accurate and
   objectives?                                         reliable performance data because they were able
                                                       obtain testimonials supporting participation.
2. Did WVHTCF only charge costs to the grants          WVHTCF officials responded that they collected
   that were reasonable, allowable, and                pricing data that validates that the subcontractor
   allocable?                                          price was the most reasonable. Finally, WVHTCF
                                                       officials stated that they followed DOL guidance for
READ THE FULL REPORT                                   calculating administrative costs and that the
To view the report, including the scope,               expenditures for the budget line items questioned
methodology, and full agency response, go to:          should have been classified differently and
http://www.oig.dol.gov/public/reports/oa/2009/03-      resulted in no changes requiring ETA approval.
09-001-03-390
                                                       WVHTCF’s response did not change the audit’s
                                                       Findings and Recommendations.
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                 WVHTCF DOL Earmarked Grants
                                   Report No. 03-09-001-03-390
                                                             U.S. Department of Labor – Office of Inspector General




Table of Contents

Assistant Inspector General’s Report ......................................................................... 1

Results In Brief .............................................................................................................. 2

Objective 1 – Did WVHTCF Accomplish the Grants' Objectives?............................. 3
         Finding 1 – WVHTCF Could Not Demonstrate that It Met the Grants'
                     Objectives in the Delivery of Training ............................................... 4
         Finding 2 – WVHTCF Is Unable to Report Job Retention Rates and Wage
                     Increases for Those Participants that Received Training.................. 8

Objective 2 – Did WVHTCF Only Charge Costs to the Grants that Were
             Reasonable, Allowable, and Allocable?.............................................. 11
         Finding 3 – WVHTCF Did Not Adequately Justify Awarding Sole Source
                     Contracts Totaling $748,549........................................................... 11
         Finding 4 – WVHTCF Charged General and Administrative Costs that
                     Exceeded WIA Limitations.............................................................. 17
         Finding 5 – WVHTCF Did Not Obtain Approval When It Made Significant
                     Changes to Two Grant Budget Line Items...................................... 18

Recommendations ...................................................................................................... 20

Exhibits
         Exhibit 1 Cost Charged to the DOL Earmarked Grants and Costs Audited ........ 23

Appendices
         Appendix A Background ..................................................................................... 27
         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 29
         Appendix C Acronyms and Abbreviations .......................................................... 35
         Appendix D WVHTCF Response to Draft Report ............................................... 37




                                                                                       WVHTCF DOL Earmarked Grants
                                                                                         Report No. 03-09-001-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                 WVHTCF DOL Earmarked Grants
                                   Report No. 03-09-001-03-390
                                                    U.S. Department of Labor – Office of Inspector General


U.S. Department of Labor                          Office of Inspector General
                                                  Washington, D.C. 20210




March 31, 2009

                               Assistant Inspector General’s Report



Douglas F. Small
Deputy Assistant Secretary for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, N.W.
Washington, D.C. 20210

The U.S. Department of Labor (DOL), Office of Inspector General (OIG), audited three
earmarked grants awarded by DOL’s Employment and Training Administration (ETA),
under the authority of the Workforce Investment Act (WIA), to the West Virginia High
Technology Consortium Foundation (WVHTCF), a 501(c)(3) non-profit organization
located in Fairmont, West Virginia. The three grants totaled $1,891,450 and were
secured through earmarked funds in the DOL spending bills for fiscal years (FYs) 2002,
2003, and 2005.

WVHTCF is a regionally-based based high tech, non-profit organization that received
the DOL grants to develop the Network Learning Alliance in order to develop training
curricula to meet specific employer needs and industry-recognized skills and
knowledge. The training would provide workers "portable" credentials tied to either
national skill standards or industry certifications. High-tech employers, meanwhile,
would have access to customized training for their immediate and long-term needs,
promoting the growth of their companies and the local economy.

The three grants supported a phased development in which the objectives of the first
and second grants were to develop and implement a web-based training system and
enroll 50 companies into the system. The web-based training system would then
develop and deliver:

      •   technical training to 50 Information Technology (IT) workers;
      •   Federal marketplace1 training to 50 IT workers;
      •   12 web-based seminars on critical training topics that reach 180 workers; and
      •   an evaluation process to assess the effectiveness of the program and report the
          results to the 50 participating companies.

The third grant’s purpose and objectives were to develop a training competency system
using the web-based training system and report performance outcomes on the number
1
    This refers to companies that have contracts with the Federal government.

                                                                                WVHTCF DOL Earmarked Grants
                                                      1                           Report No. 03-09-001-03-390
                                           U.S. Department of Labor – Office of Inspector General


of participants enrolled in training, the number of training courses available, the
completion rate of participants enrolled in training, the percent of workers trained who
were still employed after training, and the percent of participants trained and employed
who had a wage increase.

The audit objectives were to answer the following questions:

   1. Did WVHTCF accomplish the grants’ objectives?

   2. Did WVHTCF only charge costs to the grants that were reasonable, allowable,
      and allocable?

The audit covered the three DOL earmarked grants awarded to WVHTCF. The audit
scope included performance data and costs reported for the first two grants, which were
completed. For the third grant, which is on-going and scheduled to end in May 2009, the
audit covered costs reported as of March 31, 2008, which was the current reported cost
at the time we started our on-site audit work at WVHTCF in May 2008. WVHTCF did not
report any performance or outcome data at this time for the third grant. We audited 76
percent of the $1,753,595 of the Federal share costs that WVHTCF charged for all three
grants as of March 31, 2008 (See Exhibit 1).

To accomplish our objectives, we gained an understanding of the grants’ objectives by
reviewing applicable criteria and information and interviewing WVHTCF management
and staff responsible for administering the grants. We tested the performance data
reported by WVHTCF to determine whether it was accurate and reliable and we tested
costs reported by and reimbursed to WVHTCF to determine whether they were
reasonable, allowable, and allocable.

We conducted this audit in accordance with Generally Accepted Government Auditing
Standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on the audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on the
audit objectives.

RESULTS IN BRIEF

WVHTCF could not demonstrate that it accomplished the grants’ objectives to train
workers so they would obtain "portable" credentials tied to either national skill standards
or industry certifications and provide high-tech employers access to customized training
for their immediate and long-term needs. While WVHTCF developed and implemented
the Network Learning Alliance web-based training system, it reported inaccurate and
unreliable company enrollment and participant training data, and did not have a plan on
how to report performance outcomes for employment retention and wage gains.




                                                               WVHTCF DOL Earmarked Grants
                                             2                   Report No. 03-09-001-03-390
                                           U.S. Department of Labor – Office of Inspector General


Additionally, WVHTCF charged $829,890 in costs to the grant that were not reasonable
and allowable. This primarily included $748,549 in non-competitive awards that were
not adequately justified. Other costs charged by WVHTCF that were not allowable were
excessive administrative costs totaling $41,498 and significant increases to two budget
line items not approved by ETA totaling $39,843. Overall, we questioned $829,890 in
costs charged to the grants.

In their response to the draft report, WVHTCF officials disagreed with the audit findings.
WVHTCF officials agreed to take steps on their performance reporting system that will
be responsive to the audit findings and recommendations. However, WVHTCF officials
responded that there is no basis for the finding that they did not report accurate and
reliable performance data because they were able to contact over 50 companies and 60
participants and received testimonials verifying their participation. WVHTCF officials
stated that all prices for deliverables charged to the grant were reasonable and
allowable, all procurement policies and procedures were followed, and contract awards
were based on sound judgment and common sense. WVHTCF officials responded that
they collected reliable pricing data for the time period from several vendors validating
that the subcontractor price was in fact the lowest and most reasonable for the most
suitable technical platform. WVHTCF officials stated that they followed the written
directions from DOL regarding the calculation of General and Administrative costs.
WVHTCF said that the expenditures for the budget line items questioned should have
been classified differently which would have resulted in no changes requiring ETA
approval.

See Appendix D for the complete response.

Our analysis of WVHTCF’s response and the additional documentation provided after
the audit field work did not result in any changes to the Findings and Recommendations.

RESULTS AND FINDINGS

Objective 1 – Did WVHTCF Accomplish the Grants' Objectives?

WVHTCF cannot demonstrate that it accomplished the grants’ objectives to train
workers so they would obtain portable credentials tied to either national skill standards
or industry certifications and provide high-tech employers access to customized training
for their immediate and long-term needs. While WVHTCF developed and implemented
the Network Learning Alliance web-based training system to provide the training, it
reported inaccurate and unreliable company enrollment and participant training data
and did not have a plan on how to report performance outcomes for employment
retention and wage gains. This occurred because WVHTCF did not implement an
effective reporting system and policies and procedures to ensure that it reported
accurate and reliable performance and outcome data. As a result, ETA does not have
the necessary information to evaluate the accomplishments of the grants as WIA
requires.



                                                               WVHTCF DOL Earmarked Grants
                                            3                    Report No. 03-09-001-03-390
                                                         U.S. Department of Labor – Office of Inspector General




Finding 1 – WVHTCF Could Not Demonstrate that It Met the Grants' Objectives in
            the Delivery of Training

WVHTCF did not report accurate and reliable performance data for the Network
Learning Alliance web-based training system, the primary objective for the first two DOL
grants. We found inadequate support for the reported number of companies enrolled
and the number of participants trained. This occurred because WVHTCF did not
implement an effective reporting system that provided accurate and reliable data on the
use of Network Learning Alliance web-based training system. The reporting system was
not effective because WVHTCF manually extracted data from the web-based training
system and did not establish policies and procedure on how to compile and report data.
As a result, WVHTCF cannot demonstrate that the Network Learning Alliance web-
based training system achieved its overall objective – to meet the demand for IT
workers in the WV region and provide workers short-term training to help them advance
in existing careers or prepare them for new careers in the IT field.

Federal regulations2 require grantees to manage each project and report on the
progress towards meeting established goals by comparing actual accomplishments with
the established goals and objectives.

For the first two grants, WVHTCF proposed creating, developing, and implementing the
Network Learning Alliance’s web-based training system. The following table lists the
objectives provided in the grant agreements:

Table 1 - Grant Objectives
1. Enrollment Services by engaging companies through Affiliate Membership,
    establishing an on-line enrollment process, and sending training announcements
    to companies or individuals who enrolled.
2. Deliver Technical Training by developing and implementing training methods,
    developing the training to be delivered, and conducting the training.
3. Deliver Federal Marketplace Training by developing and implementing training
    methods, developing the training to be delivered, and conducting the training. .
4. Deliver Web-based Seminars through a Rapid-Response Model by identifying
    and creating a prioritized list of critical training topics, creating, conducting, and
    evaluating rapid-response web-based seminars.
5. Evaluate the Effectiveness of the Training Provided by developing and
    implementing an evaluation process to address the effectiveness of the program.

WVHTCF reported the performance results in its November 2007 Final Report to ETA
for the second grant. The Final Report provided the names of companies, participants,
and training courses for each of the performance measure results. The results showed
that WVHTCF met or exceeded their planned measures for Objectives 1 through 4. The
Final Report did not provide a conclusion on whether or not it accomplished Objective 5.
2
    Title 29 the Code of Federal Regulations (CFR) Part 95.51(a) and (d)

                                                                             WVHTCF DOL Earmarked Grants
                                                           4                   Report No. 03-09-001-03-390
                                          U.S. Department of Labor – Office of Inspector General


The performance data in the report for the objective (provided accountability reports on
33 individuals) did not match the planned measure in the grant agreement (provide
accountability reports to 50 participating companies). The following table provides the
planned goal and the reported results from WVHTCF’s Final Report for each objective:

Table 2 – WVHTCF Planned Performance Measures and Reported Results
Objectives                                Planned Measures Reported Results
1. Companies Enrolled                        50 Companies    104 Companies
2. Technical Training Delivered              50 IT Workers    99 IT Workers
3. Federal Marketplace Training Delivered    50 IT Workers   107 IT Workers
4. Web-based Seminars through a Rapid-       12 Web-based     28 web-based
    Response Model                          Seminars to 180 Seminars to 294
                                                Workers          Workers
5. Evaluate the Effectiveness of the            Provide
    Training Provided                        Accountability     Provided
                                             Reports to 50    Accountability
                                              Participating   Reports on 33
                                              Companies        Individuals

From information in WVHTCF’s Final Report to ETA, we identified 104 companies
enrolled and 370 participants trained in one or more of the courses in the Network
Learning Alliance web-based training system. To determine the accuracy and reliability
of performance data in the Final Report, we selected a random sample of 51 companies
and 52 participants to contact about their experience in the Network Learning Alliance.
We also analyzed data contained in the Network Learning Alliance web-based training
system.

The results of our sample of companies and participants and our analysis of data in the
Network Learning Alliance web-based training system showed data in the Final Report
were not accurate or reliable.

Reported Companies Enrolled

We were only able to contact 7 of the 51 companies selected in our sample to verify
enrollment in WVHTCF's Network Learning Alliance. Of the seven companies
contacted, three company representatives confirmed that they enrolled in the Network
Learning Alliance, two company representatives said they were not enrolled, and two
company representatives were unsure if they were enrolled. WVHTCF either did not
have contact information, or had incorrect or incomplete information for 36 companies
sampled. Six companies sampled did not respond to our attempts to contact them and
we did not contact two companies sampled for internal reasons. The following table
summarizes our results:




                                                              WVHTCF DOL Earmarked Grants
                                            5                   Report No. 03-09-001-03-390
                                           U.S. Department of Labor – Office of Inspector General




Table 3 – Audit Results of Testing Sample of 51 Companies Enrolled
                                                   Number of
Results                                           Companies        Percent
No Contact Information Available From WVHTCF          26             51
Incorrect or Incomplete Contact Information           10             19
No Response to Our Attempts to Contact                            6                12
Company Not Enrolled                                              2                 4
Company Enrolled                                                  3                 6
Company Unsure of Enrollment                                      2                 4
Not Contacted for Internal Reasons                                2                 4
Total                                                            51                100

Reported Participants Trained

We were only able to contact 21 of the 52 participants in our sample to verify they
received training in the Network Learning Alliance. Of the 21 participants contacted, 9
participants confirmed that they received training and 12 told us they did not receive any
training. WVHTCF either did not have contact information, or had incorrect or
incomplete information for 12 participants sampled. We did not receive responses from
17 participants we attempted to contact, and we did not contact two participants
sampled for internal reasons. The following table summarizes our results:

Table 4 - Audit Results of Testing Sample of Participants Trained
                                                    Number of
Result                                             Participants Percent
No Response to Our Attempts to Contact                       17      33
Did Not Receive Training                                     12      23
Incorrect or Incomplete Contact Information                  10      19
Received Training                                             9      17
No Contact Information Available From WVHTCF                  2       4
Other Reasons                                                 2       4
Total                                                        52     100

WVTHCF officials provided us several reasons for the lack of contact information for
some of our sampled companies and participants. They said WVHTCF initially
developed the Network Learning Alliance online platform as a rapid response training
system which would allow users to enroll, log in, and begin training immediately. As
such, they designed the system with an open enrollment that allowed anyone to sign up.
Currently, the system does not require an individual to submit all desired information for
enrollment; subsequently, some contact information is not readily available. Also, some
of the users were enrolled in 2005 and are no longer employed with the same company;


                                                               WVHTCF DOL Earmarked Grants
                                            6                    Report No. 03-09-001-03-390
                                          U.S. Department of Labor – Office of Inspector General


therefore they were not immediately accessible. Consequently, these users are enrolled
in the system but do not have accurate contact information in the system. To correct this
issue, WVHTCF officials said they will require that all fields be completed in order to
have access to the system.

WVHTCF officials cited several reasons why participants may have told OIG they did
not receive training. First, the Network Learning Alliance also worked with the National
Center for Law Enforcement Training and Technology Commercialization (NCLETTC) to
provide courses on web-based training. Users were able to visit the NCLETTC website,
enroll, log in, and have a seamless transition to the Network Learning Alliance without
seeing the front-end of the site. Though the Network Learning Alliance was clearly
represented on "My Learning Page," these particular users would most likely not be
able to associate their training with NCLETTC and the Network Learning Alliance.
Second, some participants may have been confused if the auditors used the
terminology "IT Institute" instead of the "Network Learning Alliance." Enrollees would not
have recognized the terminology, and being confused by the question, replied they did
not receive the training.

Analysis of Participant Data in the Network Learning Alliance Web-based Training
System

Our analysis of data in the Network Learning Alliance web-based training system shows
problems with the data in the Final Report. We analyzed training and enrollment data for
the 52 participants sampled.

We tested participant training in the Network Learning Alliance web-based training
system by determining if there was evidence the sampled participant actually completed
the training as reported by WVHTCF in its Final Report to ETA. The analysis showed
that only 9 of the 52 sampled participants appeared as a user in the Network Learning
Alliance web-based training system. Additionally, 3 of these 9 participants had spent
less than 10 minutes in the training courses, suggesting that courses were never
completed.

We also tested participant training by determining if there was evidence that the 52
sampled participants were enrolled in the Network Learning Alliance. The analysis
showed that all 52 participants were enrolled in courses that WVHTCF reported as
being completed. It appears that WVHTCF may have used the User Enrollment Report
instead of the Completed Events Report to report the number of participant trained in
the Final Report.

WVHTCF officials informed us that they encountered numerous problems with the
course tracking information. For example, some courses are not tracking the information
and marking the individual as complete. When this occurs, the Network Learning
Alliance team works directly with SkillSoft to resolve the issue to ensure the tracking
issue is correct. Another example is that many users do not correctly exit the course
which will keep the course recorded as "In Progress" rather than "Complete." The


                                                              WVHTCF DOL Earmarked Grants
                                            7                   Report No. 03-09-001-03-390
                                           U.S. Department of Labor – Office of Inspector General


Network Learning Alliance has recently incorporated a pop-up blocker to ensure that the
user wants to exit the course to guarantee they do not lose vital course information.

WVHTCF officials stated that the Network Learning Alliance is an authorized reseller of
SkillSoft content. SkillSoft has allowed its courses to be self-paced – allowing a user to
manually click through a course. Even though the courses have a time associated with
them, these times are an estimated time. SkillSoft had the user in mind when
developing these courses. A user has the ability to take optional pre-tests, post-tests,
and also click through a course at their own pace.

WVHTCF’s Reporting System

WVHTCF used a manual reporting system to report the performance data in the Final
Report. They manually extracted the information from the reports generated by the
training system. WVHTCF did not have policies and procedures to address system
weaknesses to ensure they compiled and reported accurate and reliable performance
data. Using a manual process increases the risk that the data may be unreliable and
inaccurate due to possible error from manual extractions from system generated report.
WVHTCF officials told us that they did not deliberately attempt to report false data
because they have been able to collect information that demonstrates that the reported
data were accurate. WVHTCF officials explained that the collection of data to validate
the performance and effort of the first two DOL grants was difficult and perhaps
unnecessarily manual. They further explained that they are instituting an automated
process to make it easier and more reliable in the future.

In their response to the draft report, WVHTCF officials did not agree with finding. While
WVHTCF officials agreed to take steps on their reporting system that will be responsive
to the audit finding, they stated that there is no basis for the finding that they did not
report accurate and reliable performance data. WVHTCF officials responded that they
were able to contact over 50 companies and 60 participants, and received supporting
testimonials verifying their participation. They said this demonstrates that WVHTCF has
been able to provide adequate and verifiable data that it met the grant objectives for
enrollment and training. WVHTCF officials stated they have taken step to automate the
reporting processes to make it less manual and responsive to the findings in the audit
report.

WVHTCF’s response did not change the finding. We analyzed the contact information
received from WVHTCF that were part of our sample and made the appropriate
revisions. However, the revisions did not result in a change to our conclusions
concerning the reporting of performance data and outcomes.

Finding 2 – WVHTCF Is Unable to Report Job Retention Rates and Wage
            Increases for Those Participants that Received Training

WVHTCF was not prepared to report outcome measures for job retention rate and wage
increases for the third DOL grant, which is ongoing. This occurred because WVHTCF


                                                               WVHTCF DOL Earmarked Grants
                                             8                   Report No. 03-09-001-03-390
                                                    U.S. Department of Labor – Office of Inspector General


did not establish policies and procedures to ensure reliable data are collected.
Therefore, WVHTCF may not be able to accurately report on the outcome measure
results for job retention and wage increases which ETA needs to evaluate whether or
not the grant objectives were met.

Federal regulations3 require grantees’ performance reports to contain brief information
on:

      •   A comparison of actual accomplishments with the planned goals and objectives
          for the period;

      •   Reasons why established goals were not met, if appropriate; and

      •   Other pertinent information including, when appropriate, analysis, and
          explanation of cost overruns or high unit costs.

ETA needs accurate and reliable outcome data because WIA4 requires it to evaluate
demonstration projects awarded under Section 171. The purpose of the evaluation is to
improve the management and effectiveness of WIA programs. The evaluation should
include the general effectiveness of such programs and activities.

The agreement for the third DOL grant stated that the Network Learning Alliance web-
based training program will facilitate training opportunities to improve targeted
competencies of the training participants. The grant provided a three-phase approach
that will result in an effective strategy for participating organizations to begin to manage
or adopt specific competency models supporting training and learning management.
The following table provides the performance outcome measures WVHTCF established
to demonstrate the success of the third grant:


    Table 5 – Planned Performance Outcome Measures and Goals
    Measures                            Goals
    1. Enrollment Rate                  By the completion of the project, the number of
                                        participants who have enrolled in training will be 500.

    2. Courses                          The total amount of courses available in the training
                                        repository will be 30.
    3. Training Completion              By the completion of the project, 75 percent of the
       Rate                             participants will have completed training.
    4. Job Retention Rate               Of the incumbent workers that receive training, 75
                                        percent will still be employed after training.



3
    Title 29 CFR Subtitle A, Part 95.51.
4
    Workforce Investment Act of 1998, Title ID, Section 172

                                                                        WVHTCF DOL Earmarked Grants
                                                      9                   Report No. 03-09-001-03-390
                                            U.S. Department of Labor – Office of Inspector General


  5. Wage Increases              Of those who completed training and are employed by
                                 the end of the project, 25 percent will have a pay
                                 increase.

WVHTCF Process to Report on Grant Objective Performance Measures

WVHTCF did not have a process in place to measure the grant objectives for the job
retention rate and wage increase. The data needed to measure these objectives would
be job status and wages before and after the training is completed. Using our
administrative access account, we obtained an understanding of the data elements in
the Network Learning Alliance web-based training system and found they did not
include the information needed to report on the job retention rate and wage increase.
Although the grant did not specify a time period after training, ETA's WIA common
measures for job retention rates and wage increases would require collecting
employment and wage data as far as the third quarter after completing the training.

WVHTCF did not have policies and procedures describing the process to collect,
analyze, and report on the measures for the job retention rate and wage increase
objectives. Therefore, we were not able to evaluate the process to determine if it will
report accurate and reliable performance data.

WVHTCF officials told us they did not ask for salary information in the enrollment
process due to legal concerns regarding personal and privacy rights. The Network
Learning Alliance is not a secure website; therefore, this information will be obtained
through the Human Resource departments of the various companies. The Network
Learning Alliance Program Manager is following up with companies who had employees
complete the training. Results of these queries will be reflected in the final project report
after the project is concluded in May 2009.

WVHTCF officials said that the grant did not require an actual management information
system (MIS) for the purpose of reporting outcome measures. However, the Program
Manager is in the process of developing a reporting system that not only implements a
MIS, but will allow data to be retrieved in ranges and percentages. This site will be on
the Network Learning Alliance server, but to ensure the information remains
confidential, it will have a different site other than the Network Learning Alliance
address. This page will be sent out to the company human resource manager or the
company point-of-contact that handles the training and only the Network Learning
Alliance team will have access to this document. The page will require a confidentiality
notice that states that the WVTHC Foundation guarantees this information will be
proprietary information and will only be used for reporting purposes to the DOL.

In their response to the draft report, WVHTCF stated it was premature and unrealistic
for there to be a finding related to reporting when not reporting has yet taken place.
However, WVHTCF officials stated they have taken step to automate the reporting
processes to make it less manual and responsive to the findings in the audit report.


                                                                WVHTCF DOL Earmarked Grants
                                             10                   Report No. 03-09-001-03-390
                                                            U.S. Department of Labor – Office of Inspector General


WVHTCF’s response did not change the finding. The finding presents conditions that
need to be addressed in order to have the ability to report accurate and reliable
performance outcomes.

Objective 2 – Did WVHTCF Only Charge Costs to the Grants that Were
              Reasonable, Allowable, and Allocable?

WVHTCF charged $829,890 in costs to the grant that were not reasonable and
allowable. This primarily included $748,549 in non-competitive awards that were not
adequately justified. Other costs charged by WVHTCF that were not allowable were
excessive administrative costs totaling $41,498 and significant increases to two budget
line items not approved by ETA totaling $39,843. Overall, we questioned $829,890 in
costs charged to the grants.

Finding 3 – WVHTCF Did Not Adequately Justify Awarding Sole Source Contracts
            Totaling $748,549

WVHTCF used non-competitive procurement methods to award most of the grant funds
that were used for contracts more than $10,000. The contractor, Information Research
Corporation (IRC), received three contracts totaling $748,549, which was 87 percent of
the total amount awarded for all contracts more than $10,000. WVHTCF did not
adequately support the reasons used in their justifications for the sole source awards to
IRC. Additionally, the Vice President of IRC was involved in the initial planning for the
Network Learning Alliance before the grants were awarded, which we concluded is a
conflict of interest. WVHTCF did not adequately justify the sole source contracts to IRC
because it did not follow its procurement policies and procedures which required sole
source awards be based on sound judgment and common sense and be fully
supported. Additionally, WVHTCF did not recognize the conflict of interest situation
involving IRC’s Vice President. Since the IRC contracts were not awarded competitively
and the reasons for the sole source awards were not adequately justified, WVHTCF
could not demonstrate that it made the best decisions in awarding these sole source
contracts to IRC and that the costs for the contracts were reasonable for the work
performed.

Federal cost principles5 provide that in order for a cost to be allowable, it must be
reasonable in that it does not exceed that which would be incurred by a prudent person
and subject to generally accepted sound business practices. Federal regulations6
provide that materials and services obtained with Federal funds are procured in an
effective manner and in compliance with Federal laws, regulations, and executive
orders. The regulations also require that all procurement transactions be conducted in a
manner to provide, to the maximum extent practical, open and free competition. Some
form of cost or price analysis shall be made and documented in the procurement files in
connection with every procurement action. The price analysis may be accomplished in
various ways, including the comparison of price quotations submitted, market prices,
5
    Office of Management and Budget (OMB) Circular A-122, Attachment A
6
    Title 29 CFR, Parts 95.40, 95.43, and 95.45


                                                                                WVHTCF DOL Earmarked Grants
                                                             11                   Report No. 03-09-001-03-390
                                                              U.S. Department of Labor – Office of Inspector General


and similar indicators, together with discounts. Cost analysis is the review and
evaluation of each element of cost to determine reasonableness, allocability, and
allowability.

Provisions in the agreements7 for the three grants required that all procurement
transactions be conducted, as practical, to provide open and free competition. If a
proposal identifies a specific entity to provide services, the ETA grant award does not
provide the justification as a basis to sole source the procurement.

WVHTCF’s procurement policies and procedures8 require that sufficient documentation
must be present to ensure the continued integrity of the Foundation's procurement
system. A justification for non-competitive action must be prepared in enough detail that
would permit a person knowledgeable of sound procurement practices, but unfamiliar
with the technical aspects of the requirement, to conclude that the action is reasonable.
The policies and procedures state that supplies or services may be procured on a non-
competitive basis only under the following circumstances:

       •    Only one known responsible source will satisfy the requirement.
       •    The item or service required is clearly proprietary and or technically unique.
       •    The customer directs use of the sole or single source.
       •    Security requirements preclude competition.
       •    Source was an original pre-qualified member of the proposal team.
       •    Services are required to be performed by the original manufacturer.
       •    Other compelling reasons or circumstances that justify a non-competitive
            procurement.

Under WVHTCF’s policies and procedures, citing one of the above reasons as a basis
for sole source or single source justification is also not sufficient; it must be fully
supported before it can be considered acceptable.

Sole Source Contracts Awarded to IRC

The initial sole source contract was for support in developing, implementing, improving,
and expanding a training educational platform that would deliver training services for the
first DOL grant. This consisted of:

                •    Creating the training platform to serve as the key infrastructure for the
                     Network Learning Alliance’s web-based training system.

                •    Aligning the curriculum with the needs assessment report and integrating
                     both commercially-available content and custom-developed content.

                •    Supporting the implementation of the actual training events.

7
    Part IV, Special Clauses and Conditions
8
    Chapter 402, Subcontracts, paragraph 403.3.5, Non-Competitive Acquisitions


                                                                                  WVHTCF DOL Earmarked Grants
                                                               12                   Report No. 03-09-001-03-390
                                             U.S. Department of Labor – Office of Inspector General




          •   Creating a sustainability model for the Network Learning Alliance including
              the development of evaluation instruments and a business model based
              on cost analysis of the implementation phase.

The purpose of the second contract awarded to IRC, using funds awarded from the
second grant, covered the continuation of the development and implementation of the
Network Learning Alliance web-based training system. The contract’s statement of work
required IRC to support WVHTCF in developing and implementing a
training/educational platform that could deliver training and educational services. The
purpose of the third contract, using funds awarded from the third grant, was for IRC to
support WVHTCF in developing and implementing a web-based competency model to
assist in managing training needs. This consisted of designing a web-based
competency model service, and then testing and implementing it into the Network
Learning Alliance’s web-based training system. The contract also required IRC to
develop the component for evaluating the implementation of the web-based
competency model. We concluded that awarding the initial contract to IRC for the
implementation phase of the project gave IRC an advantage in bidding on future
requests to support the Network Alliance’s web-based training system.

Sole Source Justifications for IRC

The sole source justification for the first IRC contract stated that IRC, a small, West
Virginia IT company, was uniquely positioned and qualified to perform the requirements
of the contract for the following reasons:

      1. The IRC Vice President has a doctorate in Instructional Technology and
         Curriculum and Instruction and has worked extensively with each of the
         project partners on past projects, as well as other facets of this overall
         workforce development effort, and has achieved very positive results.

      2. IRC is a local corporation that is integrated with the North-Central West
         Virginia IT community, has unique knowledge of the overall conceptualization
         of the integration of the audience to be addressed and the content to be
         implemented, and the technology to be utilized, including the SP Learning
         Platform. The SP Learning Platform is the Learning Content Management
         System (LCMS) best suited to the goals and objectives of the project.

      3. IRC is the sole proprietary owner of the SP Learning Platform and the only
         LCMS in West Virginia with an emphasis on Federal government agencies.
         IRC is also the only provider offering a flexible LCMS application with no per
         user licensing cost. The flexibility is critical to the ability of the IT Institute to
         integrate a variety of content packages from various programs.

The sole source justification listed five companies that provide LCMS and included a
brief description of each company’s strengths and weaknesses. The sole source


                                                                 WVHTCF DOL Earmarked Grants
                                              13                   Report No. 03-09-001-03-390
                                          U.S. Department of Labor – Office of Inspector General


justification also stated that WVHTCF evaluated five companies with LCMS and noted
the cost of working with these companies for their product alone would be a minimum of
$1 million. The justification stated that price reasonableness would be determined
based on cost and price analysis techniques.

The sole source justifications for the second and third contracts were similar. The sole
source justifications explained that IRC had the unique knowledge of the overall
conceptualization of the integrations of the audience to be addressed, the content to be
implemented, and the technology to be utilized (including the learning content
management system that they designated for our use). The justifications also stated
that the proposal for the DOL grant directly identified IRC as a partner in the above
activities.

Sole Source Justifications for IRC Were Not Adequate or Supported

The sole source justifications for the IRC contracts were not adequate because they did
not provide sufficient detail and support so a person knowledgeable about sound
procurement practices, but unfamiliar with the technical aspects of the requirements,
would conclude the action was reasonable. The following are inadequacies found for
the sole source justification for the first IRC contract:

   •   The justification did not show how other available vendors with experience in
       developing web-based training systems could not have had the ability to
       integrate the needs of the audience and the learning content into a learning
       content management system (the web-based training system). Specifically, it is
       our opinion that WVHTCF did not provide a sufficient explanation to demonstrate
       that IRC was the only one known responsible source that will satisfy the
       requirement for developing web-based training systems.

   •   The justification did not demonstrate how IRC's knowledge of the overall
       conceptualization of the integration of the audience to be addressed, and the
       content to be implemented was unique. It also did not demonstrate how having
       this knowledge would have impeded other contractors who had experience in
       developing web-based systems from adequately responding to a request for
       proposal.

   •   The justification did not explain how IRC's SP Learning Platform was so
       technically unique that other web-based training systems from other vendors
       could not be considered.

   •   WVHTCF did not have documentation to support its analysis and conclusion of
       its evaluation of five companies with a LCMS and that the cost of working with
       these companies for their product alone would be a minimum of $1 million. The
       justification stated that price reasonableness would be determined based on cost
       and price analysis techniques.



                                                              WVHTCF DOL Earmarked Grants
                                           14                   Report No. 03-09-001-03-390
                                            U.S. Department of Labor – Office of Inspector General


The sole source justifications for the second and third IRC contracts were not adequate
concerning IRC’s unique knowledge. The justifications failed to show how other
available vendors with experience in developing web-based training systems could not
have the ability to integrate the needs of the audience and the learning content into a
learning content management system. Additionally, WVHTCF did not have any
supporting documentation for the reasons provided in the justification. Finally, the grant
agreement does not allow the inclusion of IRC in the grant proposal to be the basis for
the justification to sole source the procurement.

IRC Vice President Involved in Initial Planning for the Network Learning Alliance

WVHTCF officials told us that the Vice President of IRC, cited in the sole source
justifications, was involved in the initial concept of the Network Leaning Alliance. At the
time, the Vice President was not employed by IRC. We concluded this was a conflict of
interest situation and should have been avoided by WVHTCF when awarding a sole
source contract to IRC, considering the Vice President was involve in the initial
conceptualization of the project.

WVHTCF officials concurred that the sole source justifications for the IRC contracts
could have been written more specifically. They explained that the sole source
justifications did not include other factors pertinent to IRC's involvement as a partner for
developing the Network Learning Alliance (e.g., IRC was a strategic partner in
developing its original concept). They explained:

       •   The concept resulted from an effort between the WVHTCF's Affiliate Program
           Manager and the IRC Vice President, whose primary product was a LCMS
           that he developed and which the IRC collaborated on free of cost. The
           Program Manager and the IRC Vice President worked together on the
           concept and eventually obtained funding to start gathering requirements and
           begin development. WVHTCF officials stated they had an obvious business
           obligation to continue working with the IRC Vice President given the premise
           for the project was his idea.

       •   WVHTCF officials said other organizations that were part of the project team
           assisted in assessing different LCMSs in the market place and concluded it
           was in the best interests of the project to use the IRC Vice President’s LCMS.
           Their reasons were: it was functionally comparable to other commercial
           products, it could easily be modified to our unique requirements, developers
           were local so development costs would be reduced, and the IRC Vice
           President agreed to provide the basic software at no cost to the program.

       •   WVHTCF officials told us other LCMSs they evaluated were SkillSoft, Centra,
           KnowledqeNet, Saba, and OutStart.




                                                                WVHTCF DOL Earmarked Grants
                                             15                   Report No. 03-09-001-03-390
                                            U.S. Department of Labor – Office of Inspector General


WVHTCF officials stated that in retrospect, they could have more formally entered a
Teaming Agreement with IRC; however, the collaboration and the use the IRC learning
platform, free of cost, provided the basis for the continued teaming effort.

In their response to the draft report, WVHTCF officials stated that all prices for
deliverables charged to the grant were reasonable and allowable, all procurement
policies and procedures were followed, and contract awards were based on sound
judgment and common sense. WVHTCF officials responded that since being notified of
the finding in draft audit report, they collected reliable pricing data for that time period
from several vendors that validates that the subcontractor price was, in fact, the lowest
and most reasonable for the most suitable technical platform. This data has been
provided to the audit team and is also now in the contract file. This price comparison
data was provided by an independent third party group who specializes in these specific
evaluations.

WVHTCF officials also responded that its contract staff conducted an analysis to
determine a market range for all three project phases by the subcontractor. Three
companies were contacted to help determine a price range and given a set of
requirements that exactly matched the efforts of the subcontractor. The total award for
this effort to the subcontractor was $748,549. The first company was unable to respond
because it was not within their core capabilities. The second company replied to our
request with a quote of $895,000. The third company replied to our request with a quote
of $927,000. These data were provided to the audit team.

Concerning the conflict of interest cited in the finding, WVHTCF officials responded that
subcontractor did not participate in evaluations conducted to verify the products and the
pricing portion of the effort. WVHTCF officials stated they followed up with the contract
manager who worked for them at that time in question and the person confirmed that
care was, in fact, taken by the contracts and management staff to ensure there was no
involvement by the subcontractor. No one who participated in the group that reviewed
options was related to the subcontractor or any of the company's employees. In
addition, no one from the subcontractor had insight into the prices under review by the
evaluation group.

WVHTCF’s response did not change the finding. The pricing data cited in the response
were collected after the audit work and were reconstructed. The results of the pricing
data did not support one of the factors in the sole source justification that WVHTCF
evaluated companies with LCMS and noted the cost of working with these companies
for their product alone would be a minimum of $1 million. Also, the response did not
address other factors in the sole source justification cited in the audit as not adequately
supported. These factors included how other available vendors with experience in
developing web-based training systems could not have had the ability to integrate the
needs of the audience and the learning content into the web-based training system and
how the subcontractor’s knowledge of the overall conceptualization of the integration of
the audience to be addressed, and the content to be implemented was unique.



                                                                WVHTCF DOL Earmarked Grants
                                             16                   Report No. 03-09-001-03-390
                                           U.S. Department of Labor – Office of Inspector General


Concerning the conflict of interest with the subcontractor Vice President, we revised the
report to ensure it did not indicate that the Vice President was involved in evaluating the
product and pricing for the web-based training system. The audit concluded the conflict
of interest existed because the Vice President was involved in the planning of the initial
concept of the project.

Finding 4 – WVHTCF Charged General and Administrative Costs that Exceeded
            WIA Limitations

WVHTCF charged General and Administrative costs to the grants that exceeded the
WIA administrative costs limitation. This occurred because WVHTCF did not implement
policies and procedures to ensure DOL grants awarded under WIA complied with the
administrative cost limitation requirements. As a result, WVHTCF charged $41,498 in
unallowable costs to the DOL grants.

The grant agreements for the DOL grants advised grantees that pursuant to 20 CFR,
Part 667.210(b), there is a 10 percent limitation on administrative costs on funds
administered under WIA. The grant officer may, however, approve additional
administrative costs up to a maximum of 15 percent of the total award amount, if
adequate justification is provided by the grantee at the time of the award. In no event,
may administrative costs exceed 15 percent of the total award amount. The costs of
administration shall include those disciplines enumerated in 20 CFR 667.220(b) and (c).

WVHTCF uses rates approved by the Department of Navy, Office of Navel Research, to
charge General and Administrative costs. The rates are based on a percentage of total
costs incurred, excluding pass-through agreements, land, and construction costs. The
rates for the period of the grants (April 2003 when the first DOL grant started, to the end
of our audit period in March 2008) ranged from 15.99 to 17.71 percent. ETA approved
WVHTCF to charge administrative costs to the grants that were higher than the 10
percent limitation specified in WIA regulations. ETA approved General and
Administrative cost rates of 14.68 percent, 14.9 percent, and 11.8 percent respectively
for each of the three earmarked DOL grants.

We analyzed the General and Administrative costs charged to the DOL grants and
found they exceeded the rates approved by ETA. Overall, WVHTCF charged $41,498 in
unallowable general and administrative costs. The following table provides the amount
of administrative costs that exceeded the ETA approved rates:




                                                               WVHTCF DOL Earmarked Grants
                                            17                   Report No. 03-09-001-03-390
                                                      U.S. Department of Labor – Office of Inspector General




Table 6 – Calculation of Unallowable General and Administrative Costs
                    Direct Labor,                              Allowable                       Unallowable
                  Other Direct Cost,    ETA Approved         General and      General and      General and
                   Fringe Benefits,     Administrative      Administrative   Administrative   Administrative
Grant                 Overhead           Cost Rates              Costs       Costs Charged       Costs
DOL Grant 1            $    598,360       14.68%             $      87,839    $     102,327    $     14,488
DOL Grant 2            $    604,309       14.90%             $      90,042     $     99,332    $       9,290
DOL Grant 3            $    347,082       11.80%             $      40,956     $     58,675    $     17,720
Total                  $ 1,549,751                           $     218,837    $     260,334    $     41,498



Although WVHTCF understood WIA’s limitation on administrative costs, they did not
implement procedures to ensure they complied with the requirement. WVHTCF based
the allowable general and administrative costs on the grant award amount rather than
actual costs incurred.

In their response to the draft report, WVHTCF officials stated that they provided the
audit team with data that demonstrates they followed the written directions included in
the award document from DOL regarding the calculation of General and Administrative
costs the grants. The documentation is included in all three grant awards and states that
the approved administrative rates were to be applied against the "total grant award."
The officials also stated that DOL closed the first two without instructing WVHTCF to
change its process for calculating administrative costs. WVHTCF officials stated it is
their position is that this is an internal issue within DOL and it should not be a finding.

WVHTCF’s response did not change the finding. It is our position that the rates should
have been applied to the cost incurred as long as the total general and administrative
cost did not exceed the approved rate applied to the grant award amount.

Finding 5 – WVHTCF Did Not Obtain Approval When It Made Significant Changes
            to Two Grant Budget Line Items

WVHTCF did not obtain the required ETA approval when it significantly increased
budgeted line items for equipment and training for the first and second grants. This
occurred because WVHTCF did not follow its policies and procedures and the grant
agreement requirements. As a result, the ETA grant officer did not have the opportunity
to evaluate the reasons for the revised budgeted line items and the impact on meeting
the grant objectives. Therefore, we question $39,843 in costs charged for these line
items.

The grant agreements9 require prior written approval from the grant officer for changes
in budget line items increased or decreased by more than 20 percent. WVHTCF policies


9
    Part IV – Special Clauses, No. 1: Budget Line Item Flexibility

                                                                             WVHTCF DOL Earmarked Grants
                                                       18                      Report No. 03-09-001-03-390
                                                 U.S. Department of Labor – Office of Inspector General


and procedures10 provide that significant budget changes (typically 10 percent or
greater deviation within a budget line item) require approval from the Government
program manager. Not until approval is received from the awarding agency will the
program manager proceed with performance under the revised budget.

For the first DOL grant, WVHTCF did not budget funds for equipment and training.
However, WVHTCF spent approximately $7,039 on equipment, and $17,860 on training
which increased spending for each budgeted line item by 100 percent. For the second
DOL grant, no funds were budgeted for equipment and training. However, WVTHCF
spent approximately $11,919 on equipment, and $3,025 on training which increased
spending for each budgeted line item by 100 percent. WVHTCF officials did not obtain
prior approval to increase these budgeted line items more than 20 percent. The table
below lists the grant funds spent on budget line items increased more than 20 percent.


 Table 7 – Budget Line Items That Increased More Than 10 Percent.
                                                                                    Percentage
                          Budget         Budgeted          Actual Funds             Spent Over
       Grant             Line Item        Amount              Spent                   Budget
 DOL Grant 1            Equipment              $0                  $ 7,039             100
 DOL Grant 1            Training               $0                   17,860             100
 DOL Grant 2            Equipment              $0                   11,919             100
 DOL Grant 2            Training               $0                   $3,025             100
 Total                                                            $ 39,843

WVHTCF officials told us that overall categories for Direct Labor and Other Direct Costs
were within the limitations stated both in their policy and ETA guidelines. WVHTCF
officials stated they implemented a new accounting system which now has the capability
to track budget line items against the actual costs; this will eliminate any deviation by
line item in the future.

Although WVHTCF did not exceed the budget amounts for overall Direct Labor and
Other Direct Costs, they exceeded the limitations for the individual line items sited in the
finding details. Without obtaining the required prior approval, the ETA grant officer could
not evaluate the reasons for the revised budgeted line items and the impact on meeting
the grant objectives.

In their response to the draft report, WVHTCF officials stated that the expenditures in
question should have been classified as supplies rather than equipment because they
were under $5,000. As a result, there was no increase or decrease in the "Supplies" or
the other questioned categories by more than 20 percent. The project purchased the
supplies as proposed thus; there was no need to obtain approval for a change.
WVHTCF officials stated the same situation occurred for Training. The grant proposal
described "staff training" related activities under the "Other" category. Again there was
10
     WVHTCF Procedure Manual, Section 401.6.9.

                                                                     WVHTCF DOL Earmarked Grants
                                                  19                   Report No. 03-09-001-03-390
                                           U.S. Department of Labor – Office of Inspector General


no increase or decrease in that line by more than 20 percent. In the case of the $17,860
expenditure noted in the audit report for "Training" under the first DOL Grant, it was not
staff training, but rather a contract expenditure for a training course for the Network
Learning Alliance system. This was described in the proposal budget under the
"Contractual" category.

WVHTCF’s response did not change the report finding. The items questioned appeared
under the equipment and training accounts from WVHTCF's general ledger and these
amounts should have been monitored against the approved grant budget.

Recommendations

We recommend the Assistant Secretary for Employment and Training:

   1. Require WVHTCF to develop and implement policies and procedures for a
      reporting system that will provide accurate and reliable performance and
      outcome data from the Network Learning Alliance web-based training system on
      the following:

              The companies enrolled and participants trained.

              The outcome results for job retention rate and wage increases for
              participants trained.

   2. Require WVHTCF to submit revised accurate and reliable performance data on
      the number of companies enrolled and participants trained under the Network
      Learning Alliance’s web-based training system.

   3. Require WVHTCF to follow its policies and procedures requiring sole source
      awards be based on sound judgment and common sense and be fully supported.

   4. Require WVHTCF to develop and implement policies and procedures designed
      to ensure that DOL WIA grants administered under WIA meet the limitation on
      administrative costs.

   5. Recover questioned costs of $829,890, consisting of $748,549 for sole source
      contract awards, $41,498 in excessive administrative costs charged to the
      grants, and $39,843 for increases to budgeted line items not approved by ETA.

   6. Require WVHTCF to follow its policies and procedures for revising grant budget
      line items to ensure that prior approval is obtained from the ETA grant officer
      when revising the amounts budgeted more than 20 percent.



Elliot P. Lewis

                                                               WVHTCF DOL Earmarked Grants
                                            20                   Report No. 03-09-001-03-390
           U.S. Department of Labor – Office of Inspector General




Exhibits




                               WVHTCF DOL Earmarked Grants
            21                   Report No. 03-09-001-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                 WVHTCF DOL Earmarked Grants
              22                   Report No. 03-09-001-03-390
                                                        U.S. Department of Labor – Office of Inspector General


                                                                                                      Exhibit 1
                  Cost Charged to the DOL Earmarked Grants and Costs Audited

                                                       Total Costs Charged               Total Costs Audited
                                                     Amount    Percent to
                                                    Charged to   Total                    Amount          Percent
                Expense                             DOL Grants   Costs                    Audited         Audited
Total Direct Labor Costs                           $ 261,650     14.92    $                261,650       100.00
Non-Labor Direct Costs
Subcontractors                                     $    881,590           50.27      $     511,397          58.01
Training and Education                             $     28,847            1.65
Equipment                                          $     20,486            1.17      $      19,249         93.96
Travel                                             $     14,599            0.83      $      14,599         100.00
Materials and Supplies                             $      8,558            0.49
Interns                                            $      7,895            0.45
Program Outreach                                   $      6,117            0.35
Software                                           $      5,790            0.33
Contractual                                        $      5,023            0.29      $        5,023        100.00
Meetings and Conferences                           $      4,063           0.23       $        4,063        100.00
Subcontractors Travel                              $        490            0.03
Professional Fees                                  $        300            0.02
Subcontractors                                     $        288            0.02
Postage                                            $        284            0.02
Memberships and Subscriptions                      $        113            0.01
Registrations                                      $         78            0.00
Miscellaneous                                      $         25           0.00
Total - Non-Labor Direct Costs                     $    984,546           56.14      $     554,331          56.30
Fringe Benefits                                    $    125,529           7.16       $     125,529         100.00
Overhead Costs                                     $    142,082           8.10       $     142,082         100.00
General and Administrative Costs                   $    247,785           14.13      $     247,785         100.00
Variance - Indirect Rates                          $      1,759            0.10
Total Indirect Costs11                             $    517,155           29.49      $     515,396          99.66
Total Expenses Before Program
Income                                             $ 1,763,351                       $ 1,331,377            75.50
Less: Program Income                                $ (9,755)             -0.56      $    (9,755)
Total Expenses                                     $ 1,753,596                       $ 1,321,622            75.36




   11
        The audit of indirect costs consisted of verifying that the correct approved rates and bases were used.

                                                                              WVHTCF DOL Earmarked Grants
                                                          23                    Report No. 03-09-001-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                 WVHTCF DOL Earmarked Grants
              24                   Report No. 03-09-001-03-390
             U.S. Department of Labor – Office of Inspector General




Appendices




                                 WVHTCF DOL Earmarked Grants
              25                   Report No. 03-09-001-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                 WVHTCF DOL Earmarked Grants
              26                   Report No. 03-09-001-03-390
                                          U.S. Department of Labor – Office of Inspector General


                                                                                 Appendix A
Background

Beginning in April 2003, DOL’s ETA awarded three grants to WVHTCF totaling
$1,891,450. These were earmarked grants secured in the DOL spending bills in FYs
2002, 2003, and 2005. DOL is authorized to fund and operate earmarked grants as
demonstration projects under Section 171 of WIA. The funds were directed to the IT
Training Institute being developed by WVHTCF. After the grants were awarded,
WVHTCF changed the name of the project to the Network Learning Alliance. The
Network Learning Alliance was responsible for developing curricula to meet specific
employer needs and incorporating industry-recognized skills and knowledge. Workers
would gain "portable" credentials tied to either national skill standards or industry
certifications. High-tech employers, meanwhile, would gain access to training that was
tailored to their immediate and long-term needs, enhancing the possibilities for growth
of their companies and the local economy.

The WVHTCF is a 501(c)(3) non-profit organization based in Fairmont, West Virginia,
functioning as an engine of economic change for growing a statewide and regional high
tech business sector. The WVHTCF has a consortium of companies and organizations,
called the Affiliate Program, that work in technology or technology support lines of
business with a demonstrable desire to do business in West Virginia. The mission of the
program is to provide support to the members through the coordination of value-added
services.

Together, the purpose of the ETA grants were to develop the Network Learning Alliance
to meet the demand for IT workers and provide the workers in the North Central WV
region with opportunities for short-term training that will either move them up career
ladders or provide them with new careers in the IT field. This was a three-phased
project. The first phase, funded by the first grant (referred to as DOL 1 by WVHTCF)
awarded in 2003 for $700,000 was to develop the plan for describing the needs and
objectives of the Network Learning Alliance with its partner organizations and how it
would be implemented, evaluated, and sustained. The second phase, funded by the
second grant (referred to as DOL 2 by WVHTCF) awarded in 2004 for $695,450, was to
enroll companies in the Network Learning Alliance’s web-based training system, deliver
technical training, deliver web-based seminars through the rapid response model, and
evaluates the effectiveness of the training. Specifically, the web-based training system
would then develop and deliver:

   •   technical training to 50 Information Technology (IT) workers;
   •   Federal market place training to 50 IT workers;
   •   12 web-based seminars on critical training topics reaching 180 workers, and
   •   an evaluation process that would address the effectiveness of the program and
       report the results to the 50 participating companies.

The third phase, funded by the third grant awarded in 2006 for $496,000 (referred to as
DOL 3 by WVHTCF), was develop a training competency system using the Network

                                                              WVHTCF DOL Earmarked Grants
                                           27                   Report No. 03-09-001-03-390
                                           U.S. Department of Labor – Office of Inspector General


Learning Alliance web-based training system. The competency management system
would be available to organizations to create effective competency models and enable
the use of these models to significantly improve training. The system would allow an
organization to define job competencies that could include leadership competencies,
organizational competencies, and technical competencies for a single job or job family.
WVHTCF was required to report performance outcomes on the number of participants
enrolled in training, the number of training courses available, the completion rate of
participants enrolled in training, the percent of workers trained who were still employed
after training, and the percent of participants trained and employed who had a wage
increase.

At the time of our audit, the third phase and grant was scheduled to be completed by
May 2009, although the Network Learning Alliance program and website are
operational.




                                                               WVHTCF DOL Earmarked Grants
                                            28                   Report No. 03-09-001-03-390
                                           U.S. Department of Labor – Office of Inspector General


                                                                                  Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

The audit objectives were to answer the following questions:

    1. Did WVHTCF accomplish the grants’ objectives?

    2. Did WVHTCF only charge costs to the grants that were reasonable, allowable,
       and allocable?
.

Scope

DOL OIG, audited three earmarked grants awarded by DOL’s ETA, to WVHTCF, a
501(c)(3) non-profit organization located in Fairmount, West Virginia. ETA awarded the
earmarked grants under the authority of WIA. The three grants totaled $1,891,450 and
were secured through earmarked funds in the DOL spending bills for FYs 2002, 2003,
and 2005.

The audit scope included performance data and costs reported for the first two grants,
starting April 2003 and through August 2007. The costs reported for these grants totaled
$1,390,445. These grants were completed. The audit scope for the third grant included
costs reported starting June 23, 2006, through March 31, 2008. This was the total costs
reported at the time we started our on-site audit work at WVHTCF in May 2008. As
of March 31, 2008, WVHTCF reported for this grant costs totaling $363,150 and did not
yet report performance outcome data. This grant is on-going and scheduled to end in
May 2009. We audited 76 percent of the $1,753,595 of the Federal share costs that
WVHTCF charged for all three grants as of March 31, 2008 (See Exhibit 1).

We conducted this audit in accordance with Generally Accepted Government Auditing
Standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on the audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on the
audit objectives.

A performance audit includes an understanding of internal controls considered
significant to the audit objectives and testing compliance with significant laws,
regulations, and other requirements. In planning and performing our audit, we
considered whether internal controls significant to the audit were properly designed and
placed in operation. This included reviewing WVHTCF’s policies and procedures for
administering grants. We confirmed our understanding of these controls and procedures
through interviews and documentation review



                                                               WVHTCF DOL Earmarked Grants
                                            29                   Report No. 03-09-001-03-390
                                           U.S. Department of Labor – Office of Inspector General


We performed the audit field work from May to October 2008. A significant portion of the
audit documentation consisted of records and documents received from ETA and
WVHTCF. We conducted an on-site visit to WVHTCF’s office in Fairmont, West Virginia
the week of May 19, 2008. We requested additional records and documents from
WVHTCF staff in order to accomplish the audit objectives.

Methodology

In designing the audit, we obtained an understanding of the grants’ objectives by
reviewing the grant agreements, grant modifications, WVHTCF progress reports, and
ETA monitoring reports. We also interviewed WVHTCF management and staff
responsible for administering the grants. We identified criteria key to the administration
of the DOL earmarked grants in the grant agreements, WIA regulations, the Uniform
Administrative Requirements in 29 CFR Part 95, and cost principles in
OMB Circular A - 122. We also reviewed applicable WVHTCF policies and procedures.
We conducted procedural walkthroughs with WVHTCF managers and staff to obtain an
understanding of administrative, financial, and procurement procedures for reporting
performance data and charging costs to the DOL grants. We reviewed documentation
supporting companies enrolled and participants trained in the Network Learning Alliance
web-based training system and documentation supporting expenses charged to the
grants.

In performing the audit, we evaluated internal controls used by WVHTCF for reasonable
assurance that the DOL grants were administered in accordance with Federal and
internal requirements. Our consideration of WVHTCF’s internal controls for
administering the DOL grants would not necessarily disclose all matters that might be
reportable conditions. Because of inherent limitations in internal controls,
misstatements, losses, or noncompliance may nevertheless occur and may not be
detected.

We assessed the reliability of performance and financial data. For the performance
data, we performed analytical procedures to assess the reliability of the data by testing
a statistical random sample of companies and participants. We also compared this data
to management reports from the web-based training system. We performed analytical
procedures of this data to assess its reliability. We concluded that data reported to ETA
were not sufficiently reliable. For the financial data, we used WVHTCF’s general ledger
to test costs charged to the DOL grants. We performed analytical procedures to asses
the reliability of the general ledger and performed testing on a judgmental sample of line
item expenses. We determined that WVHTCF’s general ledger had the ability to allocate
costs to the proper costs objective and was sufficiently reliable to perform our testing.

To determine the accuracy and reliability of performance data reported by WVHTCF, we
randomly sampled companies and participants reported by WVHTCF in their Final
Report to ETA for the second grant. We selected a random sample of 51 companies
and 52 participants for the purpose of contacting them about their enrollment and
training experience in the Network Learning Alliance. We selected our sample from two


                                                               WVHTCF DOL Earmarked Grants
                                            30                   Report No. 03-09-001-03-390
                                           U.S. Department of Labor – Office of Inspector General


separate universes to evaluate for any discrepancies of reported company enrollment
and participants training and to evaluate for any kind of deviation from meeting the grant
compliance. The universes consisted of 104 companies enrolled and 370 participants
trained. We created the universe of participants trained by combining the lists of
participant names shown in the Final Report for the second grant by objectives three
though five. We adopted a simple random sampling to draw the sample from the
universe of 370 participants using an audit analytical software random number
generator. We stratified the universe of 104 companies into 4 stratum based upon their
number of employees and applied a proportional sample allocation methodology for
each stratum. The samples were drawn from each stratum using a random number
generator. We did not project the results of our sample.

For the companies enrolled, we determined that a sample size of 51 companies was
sufficient to meet the targeted precision of +/- (plus or minus) 7 percent at 95 percent
confidence level. For the participants trained, we determined that a sample size of 52
participants was sufficient to reach a targeted sampling precision of +/- 9 percent at 95
percent confidence level for the universe of 370 participants. The audit used classical
sampling theory to determine the sample size for both universes.

We attempted to contact company representatives and participants. We asked the
following questions of the company representatives:

      1. Is your company enrolled in WVHTCF's IT Institute?

      2. What is your position at your company?

      3. Approximately when did your company enroll?

      4. Who is your point of contact at WVHTCF?

      5. How many employees at your company have taken training?

      6. Does your company pay an annual membership fee to be a member of the
         Affiliate Program?

      7. If so, how much are the annual fees?

      8. How many people are employed at your company?

For the participants, we asked the following questions:

      1. Have you taken courses from the Network Learning Alliance, also known as
         West Virginia High Technology Foundation IT Institute?

      2. Do you recall how many courses you have taken?



                                                               WVHTCF DOL Earmarked Grants
                                            31                   Report No. 03-09-001-03-390
                                          U.S. Department of Labor – Office of Inspector General


      3. Do you recall the names of the courses you have taken?

      4. Do you recall if there was a fee associated with the training courses you took?

      5. What is your position title at your current employer?

      6. Were the courses you took beneficial?

      7. Did they help you in your current job position?

We also performed analytical procedures on the data contained in the Network Learning
Alliance web-based training system. We analyzed participant training data to determine
if there was evidence that the sampled participant actually completed the training
reported by WVHTCF. We accomplished this by determining if the participants in our
sample were listed in the Network Learning Alliance Completed Events Report. We
obtained the Network Learning Alliance Complete Events Report using an administrator
account provided by the WVHTCF. The Completed Events Report contained the
following data used in our analysis:

             Participant Name (User Name)
             Training Course (Event)
             Date Started
             Date Completed
             Pre-Test Score
             Post-Test Score
             Total Time (Hours, Minutes, Seconds)

We analyzed the participant enrollment data to determine if there was evidence that the
sampled participants were enrolled in the Network Learning Alliance. We accomplished
this by comparing the sampled participants listed in the Final Progress Report for the
second grant to those listed in the Network Learning Alliance User Enrollment Report.
We obtained the Network Learning Alliance User Enrollment Report using an
administrator account provided by WVHTCF. The User Enrollment Report contained the
following data used in our analysis:

      Training Course
      User Name Enrolled in the Training Courses
      Date Enrolled

To determine whether WVHCTF charged reasonable, allowable, and allocable costs to
the grants, we tested the labor, travel, equipment, and contract costs charged to the
grant and tested whether WVHTCF used approved rates to charged indirect costs and
complied with WIA regulations for charging administrative costs. We tested 100 percent
of the labor costs and a judgmental sample of travel, equipment, and contract costs.




                                                              WVHTCF DOL Earmarked Grants
                                           32                   Report No. 03-09-001-03-390
                                           U.S. Department of Labor – Office of Inspector General


We reconciled WVHTCF’s cost reported to ETA in the Financial Status Reports (FSR)
to its general ledger. We also reconciled the amount of grant funds WVHTCF drew
down to the FSRs and the general ledger. To audit labor costs we traced the labor
hours to a judgmental sample time sheets to determine if they were supported and
properly allocated. To determine if the reported costs were accurate, we used the labor
hours from the time sheet and established salary information from personnel records.

Our testing of travel and equipment costs consisted of obtaining and reviewing
supporting invoices and verifying they supported the costs and were incurred according
to established criteria. Our testing of contract costs consisted of obtaining and reviewing
procurement and contract documents. We also reviewed invoices to support the costs
charged. Our audit of fringe benefits and overhead costs consisted of determining if
approved rates were properly applied to the correct cost base. Our review of general
and administrative costs consisted of determining if the ETA approved rates were
properly applied to the correct cost base.

Criteria

We used the following criteria to accomplish the audit objectives.

Grant Agreement – WVHTCF – Grant No. AF-12872-03-30 – FY 2003

Grant Agreement – WVHTCF – Grant No. AF-13777-04-60 – FY 2004

Grant Agreement – WVHTCF – Grant No. EA-15773-06-60 – FY 2006

WIA Final Rule (20 CFR Part 652)

Workforce Investment Act of 1998

OMB Circular A-122, 2004

OMB Circular A-110

Uniform Administrative Requirements 29 CFR Part 95

WVHTC Foundation Financial Policy

WVHTC Foundation Award Management Policy




                                                               WVHTCF DOL Earmarked Grants
                                            33                   Report No. 03-09-001-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                 WVHTCF DOL Earmarked Grants
              34                   Report No. 03-09-001-03-390
                                         U.S. Department of Labor – Office of Inspector General


                                                                                Appendix C
Acronyms and Abbreviations

CFR        Code of Federal Regulations

DOL        US Department of Labor

ETA        Employment and Training Administration

FSR        Financial Status Report

FY         Fiscal Year

IRC        Information Research Corporation

IT         Information Technology

LCMS       Learning Content Management System

MIS        Management Information System

NCLETTC    National Center for Law Enforcement Training and Technology
           Commercialization

OIG        Office of Inspector General

WV         West Virginia

WIA        Workforce Investment Act

WVHTCF     West Virginia High Technology Consortium Foundation




                                                             WVHTCF DOL Earmarked Grants
                                          35                   Report No. 03-09-001-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                 WVHTCF DOL Earmarked Grants
              36                   Report No. 03-09-001-03-390
                                  U.S. Department of Labor – Office of Inspector General


                                                                         Appendix D
WVHTCF Response to Draft Report




                                                      WVHTCF DOL Earmarked Grants
                                   37                   Report No. 03-09-001-03-390
U.S. Department of Labor – Office of Inspector General




                    WVHTCF DOL Earmarked Grants
 38                   Report No. 03-09-001-03-390
U.S. Department of Labor – Office of Inspector General




                    WVHTCF DOL Earmarked Grants
 39                   Report No. 03-09-001-03-390
U.S. Department of Labor – Office of Inspector General




                    WVHTCF DOL Earmarked Grants
 40                   Report No. 03-09-001-03-390
U.S. Department of Labor – Office of Inspector General




                    WVHTCF DOL Earmarked Grants
 41                   Report No. 03-09-001-03-390
U.S. Department of Labor – Office of Inspector General




                    WVHTCF DOL Earmarked Grants
 42                   Report No. 03-09-001-03-390
IN ORDER TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:       http://www.oig.dol.gov/hotlineform.htm
Email:        hotline@oig.dol.gov

Telephone:    1-800-347-3756
              202-693-6999

Fax:          202-693-7020

Address:      Office of Inspector General
              U.S. Department of Labor
              200 Constitution Avenue, N.W.
              Room S-5506
              Washington, D.C. 20210
